No. 19-1166

In the

Supreme Court of the United States
DINÉ CITIZENS AGAINST RUINING OUR ENVIRONMENT,
SAN JUAN CITIZENS ALLIANCE; AMIGOS BRAVOS;
SIERRA CLUB; AND CENTER BIOLOGICAL DIVERSITY,
Petitioners,
V.
NAVAJO TRANSITIONAL ENERGY COMPANY, LLC;
ARIZONA PUBLIC SERVICE COMPANY; BUREAU OF
INDIAN AFFAIRS; U.S. DEPARTMENT OF THE INTERIOR;
U.S. OFFICE OF SURFACE MINING RECLAMATION AND
ENFORCEMENT; U.S. BUREAU OF LAND MANAGEMENT;
DAVID BERNHARDT, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE INTERIOR; U.S. FISH
AND WILDLIFE SERVICE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
BRIEF IN OPPOSITION
ROMAN MARTINEZ
Counsel of Record
STACEY L. VANBELLEGHEM
CLAUDIA M. O’BRIEN
RILEY T. KEENAN
LATHAM & WATKINS LLP
555 11th Street, NW, Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Respondent
Arizona Public Service Company

QUESTION PRESENTED
Whether an action seeking to overturn the Navajo
Nation’s legal right to operate the Navajo Mine and
existing contracts related to its trust lands may be
litigated in the tribe’s absence under Federal Rule of
Civil Procedure 19.

ii
RULE 29.6 STATEMENT
Arizona Public Service Company (APS) is a
wholly-owned subsidiary of Pinnacle West Capital
Corporation. No publicly held corporation owns 10%
or more of Pinnacle West Capital Corporation’s stock.
APS jointly owns the Four Corners Power Plant with
Public Service Company of New Mexico, Salt River
Project Agricultural Improvement and Power
District, Tucson Electric Company, and Navajo
Transitional Energy Company, LLC.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .........................................i
RULE 29.6 STATEMENT......................................... ii
TABLE OF CONTENTS .......................................... iii
TABLE OF AUTHORITIES ..................................... iv
INTRODUCTION ...................................................... 1
STATEMENT OF THE CASE ................................... 3
REASONS FOR DENYING THE PETITION......... 11
I.

The Ninth Circuit’s Decision Is Correct .......... 12
A. The Ninth Circuit Correctly
Applied This Court’s Case-Specific
Approach to Rule 19 .................................. 12
B. The Ninth Circuit Properly
Rejected Petitioners’ Categorical
Approach to Rule 19 .................................. 20

II.

There Is No Circuit Split ................................. 24

III. This Case Is A Poor Vehicle For Review ......... 32
CONCLUSION ......................................................... 34

iv
TABLE OF AUTHORITIES
Page(s)
CASES
Alto v. Block,
738 F.3d 1111 (9th Cir. 2013).................. 15, 20, 26
Cachil Dehe Band of Wintun Indians of the
Colusa Indian Community v. California,
547 F.3d 962 (9th Cir. 2008), cert.
denied, 556 U.S. 1182 (2009) ...............................13
Center for Biological Diversity v. Pizarchik,
858 F. Supp. 2d 1221 (D. Colo. 2012) ............28, 29
Citizen Potawatomi Nation v. Norton,
248 F.3d 993 (10th Cir.), opinion
modified on reh’g, 257 F.3d 1158 (10th
Cir. 2001)..............................................................29
Conner v. Burford,
848 F.2d 1411 (9th Cir. 1988)...................... passim
Jeffries v. Georgia Residential Finance
Authority,
678 F.2d 919 (11th Cir.), cert. denied,
459 U.S. 971 (1982) ........................................31, 32
Kansas v. United States,
249 F.3d 1213 (10th Cir. 2001)............................26
Kescoli v. Babbitt,
101 F.3d 1304 (9th Cir. 1996).................. 10, 18, 22

v
TABLE OF AUTHORITIES—Continued
Page(s)
Kickapoo Tribe of Indians of the Kickapoo
Reservation in Kansas v. Babbitt,
43 F.3d 1491 (D.C. Cir. 1995) ..............................29
Makah Indian Tribe v. Verity,
910 F.2d 555 (9th Cir. 1990).............. 13, 14, 25, 30
Manygoats v. Kleppe,
558 F.2d 556 (10th Cir. 1977)........................26, 27
National Licorice Co. v. NLRB,
309 U.S. 350 (1940) ............................ 10, 18, 19, 22
Ramah Navajo School Board, Inc. v.
Babbitt,
87 F.3d 1338 (D.C. Cir. 1996) ........................29, 30
Republic of the Philippines v. Pimentel,
553 U.S. 851 (2008) .................................. 13, 17, 22
Sac & Fox Nation v. Norton,
240 F.3d 1250 (10th Cir. 2001), cert.
denied, 534 U.S. 1078 (2002) ...............................26
School District of Pontiac v. Secretary of the
United States Department of Education,
584 F.3d 253 (6th Cir. 2009)..........................30, 31
Southern Utah Wilderness Alliance v.
Kempthorne,
525 F.3d 966 (10th Cir. 2008)........................27, 28

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Southwest Center for Biological Diversity v.
Babbitt,
150 F.3d 1152 (9th Cir. 1998)..............................16
Thomas v. United States,
189 F.3d 662 (7th Cir. 1999), cert.
denied, 531 U.S. 811 (2000) ...........................24, 25
United States ex rel. Hall v. Tribal
Development Corp.,
100 F.3d 476 (7th Cir. 1996)..........................22, 25
White v. University of California,
765 F.3d 1010 (9th Cir. 2014), cert.
denied, 136 S. Ct. 983 (2016) ...........................8, 13
STATUTES
25 U.S.C. § 476(a)(2) (1994) ......................................24
25 U.S.C. § 476(d) (1994) ..........................................24
25 U.S.C. § 2701-2721 ...............................................26
OTHER AUTHORITIES
Fed. R. Civ. P. 19(a)(1) ................................................8
Fed. R. Civ. P. 19(a)(1)(B) ...........................................8
Fed. R. Civ. P. 19(a)(1)(B)(i) ...............................12, 22
Fed. R. Civ. P. 19(b) ............................ 8, 12, 13, 16, 22

vii
TABLE OF AUTHORITIES—Continued
Page(s)
7 Charles Alan Wright et al., Federal
Practice and Procedure (3d ed. 2020
update, Westlaw) .................................................13

INTRODUCTION
The entire purpose of this case is to invalidate the
legal rights of the Navajo Transitional Energy
Company (NTEC) and Arizona Public Service
Company (APS) to operate the Navajo Mine and Four
Corners Power Plant (“the Plant”) on Navajo Nation
land. Because NTEC’s legal rights are directly at
stake, both lower courts correctly held that Federal
Rule of Civil Procedure 19 prevents this case from
moving forward unless NTEC is joined as a party.
But NTEC is a tribal entity that possesses the Navajo
Nation’s sovereign immunity—and so it cannot be
joined. For that reason, both lower courts concluded
that Rule 19 mandates dismissal of the case.
That decision was plainly correct. As the Ninth
Circuit explained, Rule 19 requires a “practical” and
“fact specific” inquiry into whether it is fair and
equitable to adjudicate a case that might impair the
interests of an absent party. App. 36a (citation
omitted). Here, it would be entirely inappropriate to
adjudicate whether to eliminate NTEC’s right to
operate the Navajo Mine without NTEC itself—or the
Navajo Nation—taking part in the case. NTEC was
created in 2013 as part of a broader effort by the
Navajo Nation to take sovereign control of its own
natural resources, and the operations that take place
at the Mine and Plant are the Nation’s economic
lifeblood. They provide jobs to hundreds of tribal
members and generate approximately one-third of the
Nation’s revenues. It would be profoundly unjust—
and contrary to the letter and spirit of Rule 19—to
expose the Navajo Nation’s economic well-being to
potential disaster without having NTEC or the
Navajo Nation in court to defend the tribe’s rights.

2
Any suggestion that federal government agencies are
capable of vindicating the Nation’s unique sovereign
interests here is wrong.
Petitioners urge this Court to grant review and
overturn the Ninth Circuit’s ruling based on an
asserted circuit split over how to apply Rule 19 to
Administrative Procedure Act (APA) cases touching
on tribal interests. But the split does not exist:
Petitioners point to a handful of cases that come out
differently on their facts, but none of them adopts a
different legal test than the case-specific Rule 19
inquiry applied by the Ninth Circuit here. Indeed, a
number of the cited decisions rely on Ninth Circuit
precedents that the Ninth Circuit panel in this case
expressly distinguished.
Petitioners are also wrong to claim that the Ninth
Circuit’s rule will categorically foreclose APA
challenges to federal actions affecting tribes. That is
not the approach to Rule 19 the Ninth Circuit has
taken in the many tribal-related cases it has allowed
to proceed over the past few decades, and it is not the
approach it took here. Rather, the court applied
settled circuit precedent and held that in the
particular circumstances here—where the goal of the
litigation is to eliminate the tribe’s existing legal
rights and to force them to shut down ongoing mining
operations essential to the tribe’s well-being—
dismissal is warranted. In reality, petitioners are the
only ones who have advocated a categorical rule,
arguing below that the only necessary respondent in
an APA case is the federal government, regardless of
whether and how the case will affect the legal rights
of others. That is not the law.
Petitioners are threatening the Navajo Nation
with catastrophe through litigation designed to shut

3
down a significant source of the revenue it needs to
provide critical services to its members. Rule 19 does
not allow this case to move forward without NTEC’s
participation. The petition should be denied.
STATEMENT OF THE CASE
1. For more than 50 years, the Navajo Nation has
funded its government operations and public services
with revenues derived from mining the Navajo
Nation’s abundant natural resources, including coal.
SER2.1 Coal extracted at the Navajo Mine is sold to
APS to fuel operations at the Plant.
Navajo Mine and the Plant have operated on the
Navajo Nation since the early 1960s. SER58, 60.
Navajo Mine was privately owned until 2013, when
the Navajo Nation created NTEC, an entity wholly
owned by the Nation, to purchase and operate it as
part of a broader plan to reclaim sovereign control
over the tribe’s natural resources and economic and
financial well-being. SER43-44, 49-52, 73-77; Resp’t
NTEC CA9 Br. 16 (CA9 ECF No. 34 at 16). As an
entity wholly owned by the Navajo Nation, NTEC
retains the Nation’s sovereign immunity. App. 23a24a.
APS operates the Plant pursuant to lease
agreements with the Navajo Nation, with the most
recent lease renewal negotiated in 2011. SER29, 58,
60. Because the United States holds the Navajo
Nation lands in trust for the tribe, federal law
required APS and the Nation to obtain approval from
the Bureau of Indian Affairs (BIA) for the lease
1 “SER” refers to APS’s supplemental excerpts of record filed
in the Ninth Circuit. See CA9 ECF No. 33. “ER” refers to
petitioners’ excerpts of record. See CA9 ECF No. 18.

4
renewal and for the renewal of APS’s existing rightsof-way over Navajo Nation lands.
Navajo Mine operates pursuant to a permit issued
by the Office of Surface Mining, Reclamation and
Enforcement (OSMRE) under the Surface Mining
Control and Reclamation Act (SMCRA). SER28.
OSMRE first issued a SMCRA permit for Navajo
Mine in 1977, and has issued multiple renewals since
that time. See SER58.
Each year, Navajo Mine and the Plant generate
between $40 and $60 million in revenue for the
Navajo Nation—over a third of the Nation’s general
fund. ER127. The Navajo Nation uses those revenues
to fund critical social services, including education,
police, fire, and emergency medical services. SER37.
Navajo Mine and the Plant also employ hundreds of
Navajo Nation members, in what are some of the bestpaying jobs in the region. Id.; SER3, 11.
2. In 2012, APS and NTEC’s predecessor-ininterest filed applications for renewed lease approval,
rights-of-way, and permits.
These applications
triggered a multi-year, multi-agency environmental
review of Navajo Mine and the Plant. OSMRE served
as the lead agency in preparing an environmental
impact statement (EIS) required by the National
Environmental Policy Act (NEPA). SER62. It did so
in cooperation with the BIA, the U.S. Army Corps of
Engineers, the Bureau of Land Management (BLM),
the U.S. Environmental Protection Agency, the
National Park Service, and the U.S. Fish and Wildlife
Service (FWS). SER31-33. This environmental
review
process
involved
significant
public
participation, including 18 public open house
meetings and public comment on the environmental
review documents. SER62-64.

5
Following this comprehensive stakeholder
outreach, OSMRE and the cooperating agencies
published a 1,700-page final EIS, addressing
potential environmental effects of Navajo Mine and
the Plant operations under a number of alternatives.
The report evaluated the impact on air quality,
climate change, cultural resources, water quality,
wildlife and habitats, and the socioeconomics of the
Four Corners region. See SER15-22. The final EIS
also considered and responded to the public comments
received on the draft EIS. SER64.
While the NEPA review was underway, the
agencies also consulted with FWS to ensure that the
approvals for ongoing operations at Navajo Mine and
the Plant would not jeopardize any endangered or
threatened species or its habitat, as required by the
Endangered Species Act (ESA). SER65. After an
extensive consultation process, FWS published a
biological opinion concluding that the proposed
operations, which incorporated species conservation
measures, would not jeopardize any protected species
or adversely modify critical habitat. Id.
Following this review, on July 15, 2015, the
agencies within the Department of the Interior
(OSMRE, BIA, and BLM) executed a Record of
Decision (ROD) granting APS and NTEC the
approvals required for Navajo Mine and the Plant to
continue to operate. ER125-39. These included BIA’s
approval of the lease amendment and rights of way
for the Plant, ER133-37; OSMRE’s renewal of the
Mine’s existing SMCRA permit, ER130-32; and
BLM’s approval of the Mine’s Resource Recovery and
Protection Plan as ensuring “maximum recovery” of
coal deposits. ER138.

6
APS and NTEC then relied on these approvals and
proceeded to make substantial financial investments
in Navajo Mine and the Plant. For example, APS
installed new state-of-the art air emission controls,
totaling close to $500 million, and has been investing
many more millions to implement additional Plant
environmental protection upgrades along with
species conservation and recovery measures. See
Resp’t APS CA9 Br. 13 (CA9 ECF No. 32); SER48.
NTEC also pledged Navajo Mine and other assets to
secure a new $115 million line of credit. SER3. A
default on the loan would result in the loss of the
Navajo Mine and the millions of dollars that the
Navajo Nation directly contributed to start-up costs,
in addition to the loss of billions of dollars in future
revenues for the Navajo Nation. See id.
3. In April 2016, nearly a year after the ROD was
issued, petitioners sued OSMRE, BIA, BLM, FWS,
the Department of the Interior, and the Secretary of
the Interior (together, the Government) under the
APA, NEPA, and the ESA. ER49-67. Petitioners
asked the district court to vacate the ROD, EIS, and
Biological Opinion and to enjoin the Government from
authorizing the continued operation of Navajo Mine
and the Plant until it prepared a new EIS and
Biological Opinion. ER68-69.
APS intervened in support of the Government.
ER77-81. NTEC intervened for the limited purpose of
moving to dismiss the action under Federal Rules of
Civil Procedure 12(b)(7) and 19 for failure to join a
required party—namely, NTEC itself, which could
not be joined due to tribal sovereign immunity.
The district court agreed with NTEC and
dismissed the case. “If successful,” the district court
explained, petitioners’ suit would jeopardize the

7
“continued operation of Navajo Mine and Four
Corners Power Plant” and, consequently, “the
solvency of the Navajo Nation” itself. ER3-4. Given
these “affronts to the Nation’s sovereignty,” the court
held that NTEC had cognizable interests in the
litigation that were protected by Rule 19. ER4.
NTEC could not be brought into the litigation to
defend those interests because, as an “arm” of the
Navajo Nation, it enjoys tribal sovereign immunity.
ER5-7. Nor could the federal agencies that were
already defending the suit adequately represent
NTEC’s interests, since its interests in preserving the
Navajo Nation’s financial and economic stability “far
exceed” the agencies’ own interests in “‘defend[ing]
their analyses and decisions’” concerning the
environmental review. ER4-5 (citation omitted).
Thus, the district court concluded that the litigation
could not move forward “[i]n equity and good
conscience,” and it granted NTEC’s motion to dismiss
the suit. ER7.
4. On appeal, petitioners urged the Ninth Circuit
to adopt a categorical rule that “tribal sovereign
immunity is not a sufficient basis for dismissing
public interest lawsuits against federal agencies for
violating NEPA and the ESA.” Pet’rs CA9 Br. 20
(CA9 ECF No. 17). The Ninth Circuit rejected that
approach, and instead affirmed the district court’s
dismissal of the action under its “practical” and “factspecific” approach to Rule 19. See App. 14a (citation
omitted).
a. The Ninth Circuit began by setting out its basic
framework for compulsory joinder under Rule 19.
When faced with a motion to dismiss for failure to join
a party, the court explained, a court must first
determine whether the absent party is “required”

8
under Rule 19(a), meaning that the party “must be
joined” if feasible. App. 12a-13a (quoting Fed. R. Civ.
P. 19(a)(1)). If an absent party is required but “cannot
be joined,” then the court must apply Rule 19(b) to
determine “whether, in equity and good conscience,
the action should proceed among the existing parties
or should be dismissed.” App. 13a (quoting Fed. R.
Civ. P. 19(b)).
b. Applying this framework, the Ninth Circuit
first considered whether NTEC is a required party
under Rule 19(a) because it has a “legally protected
interest” that would be “impair[ed]” if the litigation
proceeded without it. App. 13a-23a (citing Fed. R.
Civ. P. 19(a)(1)(B)). The court acknowledged that this
inquiry under Rule 19(a) is “practical” and “fact
specific.” App. 14a (quoting White v. Univ. of Cal., 765
F.3d 1010, 1026 (9th Cir. 2014) (citation omitted),
cert. denied, 136 S. Ct. 983 (2016)).
The Ninth Circuit first concluded that NTEC has
a “legally protected interest” in the subject matter of
the litigation. App. 13a-18a. The court recognized
that petitioners’ suit targets “approvals already
granted for [NTEC’s] mining operations.” App. 15a18a. Indeed, if the suit is successful, it will result in
vacatur of the environmental approvals—which
would mean that “the Mine could not operate, and the
Navajo Nation would lose a key source of revenue in
which NTEC has already substantially invested.” Id.
at 18a (emphasis added). In reaching this conclusion,
the court distinguished several Ninth Circuit
precedents that had declined to recognize legallyprotected interests of Indian tribes for Rule 19
purposes where the relief sought was prospective in
nature. App. 16a-18a.

9
Next, the court concluded that no existing party
“[can] be counted on to adequately represent NTEC’s
interests.” App. 18a-23a. Although the defendant
federal agencies (Federal Respondents) “have an
interest in defending their decisions,” the court
explained, “their overriding interest . . . must be in
complying with environmental laws such as NEPA
and the ESA.” App. 21a. This interest differs “in a
meaningful sense” from NTEC’s “sovereign interest in
ensuring that the Mine and Power Plant continue to
operate,” including the Nation’s “ability to govern
itself, sustain itself financially, and make decisions
about its own natural resources.” App. 21a-23a. In
reaching this conclusion, the Ninth Circuit again
distinguished several prior decisions that had found
a federal agency capable of representing the interests
of an absent tribe. Id. at 19a-20a, 22a.
c. Having found that NTEC is a required party
under Rule 19(a), the Ninth Circuit next determined
that NTEC’s joinder is not “feasible” under Rule 19(b),
because NTEC shares the Navajo Nation’s sovereign
immunity. App. 23a-24a.
d. The court next proceeded to consider whether,
“in equity and good conscience,” the action could
proceed without NTEC under Rule 19(b). App. 25a28a. Applying the four factors relevant to this
determination, the court concluded: (1) NTEC and the
Navajo Nation would suffer prejudice because, “if this
lawsuit were to proceed and [petitioners] were to
prevail,” the Nation could lose “an estimated 40 to 60
million dollars per year in revenue” and “its ability to
use its natural resources how it chooses”; (2) the court
could not shape relief so as to avoid this prejudice; (3)
a judgment rendered without NTEC would be
“adequate” because it would not impose “conflicting

10
obligations” on Federal Respondents; and (4) even if
no alternative remedy were available to petitioners,
that fact still would not preclude dismissal because
“the lack of an alternative remedy ‘is a common
consequence of sovereign immunity.’” App. 26a-27a
(citations omitted).
Citing the “‘wall of circuit
authority’ in favor of dismissing an action where a
tribe is a necessary party,” the Ninth Circuit
concluded that “this litigation cannot, in good
conscience, continue in NTEC’s absence.” App. 28a
(citation omitted).
e. Finally, the Ninth Circuit addressed petitioners’
contention that the so-called “public rights” exception
exempts this case from Rule 19’s joinder rules. App.
28a-33a.
It explained that “[t]he public rights
exception is a limited ‘exception to traditional joinder
rules’ under which a party, although necessary, will
not be deemed ‘indispensable,’ and the litigation may
continue in the absence of that party.” App. 28a
(citation omitted). The court noted that the exception
is “narrowly restricted to the protection and
enforcement of public rights” and, importantly, it
must not be applied where it would “destroy the legal
entitlements of the absent parties.” Id. (first quoting
National Licorice Co. v. NLRB, 309 U.S. 350, 363
(1940); and then quoting Kescoli v. Babbitt, 101 F.3d
1304, 1311 (9th Cir. 1996) (citation omitted)).
The Ninth Circuit concluded that the public rights
exception does not apply here because the litigation
“threatens to destroy NTEC’s existing legal
entitlements” in Navajo Mine and the Plant. App.
31a. Once again, in so holding, the Ninth Circuit
distinguished on its facts a prior case in which the
Ninth Circuit did apply the public rights exception.

11
Id. (citing Conner v. Burford, 848 F.2d 1441 (9th Cir.
1988)).2
REASONS FOR DENYING THE PETITION
The Ninth Circuit correctly applied this Court’s
pragmatic and fact-specific approach to Rule 19 to
determine that—in the unique circumstances of this
case—this litigation cannot proceed without NTEC
representing the interests of the Navajo Nation. That
decision faithfully implements Rule 19, which is
designed to prevent the legal rights of third parties
from being adjudicated in their absence. Here, the
litigation threatens immediate fiscal catastrophe to
the Navajo Nation and would potentially undermine
the Nation’s sovereign control over its natural
resources. The suit cannot proceed in NTEC’s
absence.
Petitioners’ attempt to assert a circuit split over
Rule 19’s application to cases involving Indian tribes
falls flat. Petitioners have identified no circuit that
deviates from this Court’s factbound approach to Rule
19, and the fact that different cases involving
different circumstances come out in different ways
does not undermine their uniform approach to the
applicable legal standards. And this case is the wrong
vehicle for addressing theoretical issues about the
intersection of Rule 19 and tribal sovereign immunity
in any event. Allowing this case to proceed would
threaten the source of over a third of the Navajo
Nation’s general fund. This case must be dismissed
under any reasonable approach to Rule 19. For all
these reasons, the petition should be denied.
2 Petitioners’ petition for rehearing en banc was denied in

December 2019, without any judge requesting a vote. App. 45a.

12
I. THE NINTH
CORRECT

CIRCUIT’S

DECISION

IS

The Ninth Circuit correctly affirmed the dismissal
of this case under a straightforward application of
Rule 19’s joinder requirements.
Petitioners’
argument
to
the
contrary
rests
on
a
mischaracterization of that decision and a failure to
appreciate the divergent interests of NTEC and the
Federal Defendants with respect to the continued
operation of the Navajo Mine.
A. The Ninth Circuit Correctly Applied This
Court’s Case-Specific Approach to Rule
19
1. Federal Rule of Civil Procedure 19 governs the
joinder of required parties. It establishes a factbound
and case-specific analysis designed to ensure that a
lawsuit does not jeopardize the rights of nonparties.
Rule 19(a) provides that a person with “an interest
relating to the subject of [an] action” must be joined
as a party if “disposing of the action in the person’s
absence” would “as a practical matter impair or
impede the person’s ability to protect the interest.”
Fed. R. Civ. P. 19(a)(1)(B)(i). If joinder of a required
party is not feasible—for example, because it would
destroy the court’s subject-matter jurisdiction—then
Rule 19(b) directs the court to “determine whether, in
equity and good conscience, the action should proceed
among the existing parties or should be dismissed.”
Fed. R. Civ. P. 19(b). In making that determination,
the court considers four factors: (1) the prejudice to
the absent party; (2) the extent to which potential
relief can be tailored to limit that prejudice; (3)
whether a judgment rendered without the absent
party would be adequate; and (4) whether the plaintiff

13
would have an alternative remedy if the action were
dismissed. Id.
As this Court has explained, “the determination
whether to proceed [under Rule 19] will turn upon
factors that are case specific, which is consistent with
a Rule based on equitable considerations.” Republic
of the Philippines v. Pimentel, 553 U.S. 851, 862-63
(2008). It turns on the particular interests asserted
by the absent party and whether it is fair to
adjudicate those interests in that party’s absence. Id.
at 863-64; see also 7 Charles Alan Wright et al.,
Federal Practice and Procedure § 1602 (3d ed. 2020
update, Westlaw) (noting that Rule 19 “provides a
pragmatic approach to solving joinder dilemmas”).
2. The Ninth Circuit correctly stated and applied
these standard Rule 19 principles here. The court
recognized that its first task in determining whether
NTEC was a required party was to “carefully . . .
identify [NTEC’s] interest at stake.” App. 13a
(alterations in original) (citation omitted). In doing
so, it emphasized that “‘[t]he inquiry under Rule 19(a)
“is a practical one and fact specific,”’” and that “‘few
categorical rules inform[] this inquiry.’” App. 14a
(second alteration in original) (first quoting White v.
Univ. of Cal., 765 F.3d 1010, 1026 (9th Cir. 2014)
(citation omitted), cert. denied, 136 S. Ct. 983 (2016);
and then quoting Cachil Dehe Band of Wintun
Indians of the Colusa Indian Cmty. v. California, 547
F.3d 962, 970 (9th Cir. 2008), cert. denied, 556 U.S.
1182 (2009)). The court emphasized that when the
asserted interest arises from a contract, it must be
“substantial,” id. (citation omitted), and “more than a
financial stake,” id. (quoting Makah Indian Tribe v.
Verity, 910 F.2d 555, 558 & n.5 (9th Cir. 1990)).

14
Applying these rules, the Ninth Circuit concluded
that NTEC had a legally protected interest in the
subject matter of this litigation. The court recognized
that, as a general rule, a third party lacks a legally
protected interest in an action “seeking only to enforce
[agency] compliance with administrative procedures.”
App. 15a. But such an interest may lie where, as here,
“the effect of [the] successful suit would be to impair
a right already granted” to the absent party. Id.
Here, the court explained that “[a]lthough
Plaintiffs’ challenge is to Federal Defendants’ NEPA
and ESA processes, “it does not relate only to the
agencies’ future administrative process, but instead
may have retroactive effects on approvals already
granted for mining operations.” App. 17a. The court
noted that “[i]f [petitioners] succeeded in their
challenge and the agency actions were vacated,
NTEC’s interest in the existing lease, rights-of-way,
and surface mining permits would be impaired,”
because “[w]ithout the proper approvals, the Mine
could not operate, and the Navajo Nation would lose a
key source of revenue in which NTEC has already
substantially invested.” Id. at 17a-18a (emphasis
added). The court expressly distinguished its prior
decisions in Makah and Colusa, in which it had
allowed cases to move forward without the
participation of an absent tribe because the relief
sought was “prospective only” and thus “prevent[ed]
any impairment to a legally protected interest.” App.
18a; see also App. 16a.
Next, the Ninth Circuit recognized that under
Rule 19(a), “[i]f a legally protected interest exists,” a
court “must further determine whether that interest
will be impaired or impeded by the suit.” App. 14a
(quoting Makah, 910 F.2d at 558).
Practically

15
speaking, the court noted, an absent party’s interest
will not be impaired “where its interest will be
adequately represented by existing parties to the
suit.” Id. (quoting Alto v. Block, 738 F.3d 1111, 1127
(9th Cir. 2013)). The court then listed three factors
guiding this determination: (1) “whether the interests
of a present party to the suit are such that it will
undoubtedly make all of the absent party’s
arguments”; (2) “whether the party is capable of and
willing to make such arguments”; and (3) “whether
the absent party would offer any necessary element to
the proceedings that the present parties would
neglect.” App. 14a-15a (quoting Alto, 738 F.3d at
1127-28).
Again, the court applied these settled rules and
concluded that, on the facts of this case, the Federal
Respondents could not adequately represent NTEC’s
interests in the Navajo Mine and the Plant.
“Although Federal Defendants have an interest in
defending their decisions,” the court explained, “their
overriding interest . . . must be in complying with
environmental laws such as NEPA and the ESA.”
App. 21a. “This interest differs in a meaningful sense
from NTEC’s and the Navajo Nation’s sovereign
interest in ensuring that the Mine and Power Plant
continue to operate and provide profits to the Navajo
Nation.” Id. It stressed the sovereign nature of
NTEC’s interest in this case, which is “tied to [the
Navajo Nation’s] very ability to govern itself, sustain
itself financially, and make decisions about its own
natural resources.” App. 22a-23a.
The court noted that NTEC’s and the Federal
Defendants’ interests might diverge if “the district
court were to hold that NEPA or the ESA required
more analysis that would delay mining activities, or

16
that one of the federal agencies’ analyses underlying
the approval was flawed.” App. 21a. In reaching this
conclusion, the court addressed—and distinguished—
various other cases in which it had held that federal
agencies could adequately represent the interests of
absent tribes under the particular facts at issue. Id.
at 19a-20a (discussing Alto and Southwest Center for
Biological Diversity v. Babbitt, 150 F.3d 1152 (9th Cir.
1998)). Similarly, although APS owns and operates
the Plant, and thus has a financial stake in the
outcome of the case, it “does not share the Navajo
Nation’s sovereign interest in controlling its own
resources, and in the continued operation of the Mine
and Power Plant and the financial support that such
operation provides.” App. 22a. Thus, the court
concluded that NTEC is a required party under Rule
19(a).
Next, the Ninth Circuit held that NTEC’s joinder
was not “feasible” under Rule 19(b), because NTEC
shared the Navajo Nation’s sovereign immunity.
App. 23a-24a. The court recognized that NTEC is
“wholly owned by the Navajo Nation,” “organized
pursuant to Navajo law,” and was “created
specifically so that the Navajo Nation could purchase
the Mine.” App. 24a. The court explained that “tribal
corporations acting as an arm of the tribe enjoy the
same sovereign immunity granted to a tribe itself.”
App. 23a (citation omitted). The court thus concluded
that NTEC could not be joined without its consent.
Finally, the Ninth Circuit applied Rule 19(b) and
considered “whether, in equity and good conscience,
the action should proceed among the existing parties
or should be dismissed.” App. 25a (quoting Fed. R.
Civ. P. 19(b)). It then went on to list the factors
enumerated in Rule 19(b), and noted that they were

17
“nonexclusive.” Id. (quoting Pimentel, 553 U.S. at
862).
The court then carefully discussed each of the four
factors enumerated in Rule 19(b). App. 26a-28a. The
court held that the first factor—the potential
prejudice to the absent party—weighed in favor of
dismissal: NTEC would suffer prejudice because of
the potential interference with mining operations,
because if “[petitioners] were to prevail,” they could
lose “an estimated 40 to 60 million dollars per year in
revenue for the Navajo Nation, as well as its ability to
use its natural resources how it chooses.” App. 26a.
The court recognized that the second factor—the
possibility of shaping relief so as to avoid prejudice to
the absent party—likewise supported dismissal. The
court explained that “[a]lthough relief could be
shaped to avoid prejudice in the short term,” the
Navajo Nation would “inevitably” be prejudiced “if
[petitioners] ultimately succeeded and if, after further
NEPA and ESA processes, Federal Defendants were
not able to come to the same decisions without
imposing new restrictions or requirements on the
Mine or Power Plant.” App. 27a.
By contrast, the Ninth Circuit acknowledged that
the third factor—adequacy of the judgment—weighed
against dismissal, “because it is Federal Defendants’
duty, not NTEC’s, to comply with NEPA and the
ESA.” Id. And although in theory the fourth factor
also weighed against dismissal the court explained
that “the lack of an alternative remedy ‘is a common
consequence of sovereign immunity.’” Id. (citation
omitted). Thus, “[e]ven assuming that . . . both the
third and fourth factors . . . weigh against dismissal,”
dismissal was nonetheless proper. And in reaching
that conclusion the court highlighted its consistency

18
with circuit precedent, pointing to the “‘wall of circuit
authority’ in favor of dismissing an action where a
tribe is a necessary party.” App. 28a (citation
omitted). Thus, the court concluded under Rule 19(b)
that “this litigation cannot, in good conscience,
continue in NTEC’s absence.” Id.
3. The Ninth Circuit also correctly rejected
petitioners’ reliance on the “public rights” doctrine.
This doctrine exempts from traditional joinder rules
cases that are “narrowly restricted to the protection
and enforcement of public rights.” Nat’l Licorice Co.
v. NLRB, 309 U.S. 350, 363 (1940). Thus, as the
Ninth Circuit correctly recognized, the doctrine is a
“limited ‘exception to traditional joinder rules’ under
which a party, although necessary, will not be deemed
‘indispensable,’ and the litigation may continue in the
absence of that party.” App. 28a (quoting Conner v.
Burford, 848 F.2d 1411, 1458-59 (9th Cir. 1988)). As
the court further explained, the doctrine “may apply
in a case that could ‘adversely affect the absent
parties’ interests,’ but ‘the litigation must not “destroy
the legal entitlements of the absent parties.””’ Id.
(quoting Kescoli v. Babbitt, 101 F.3d 1304, 1311 (9th
Cir. 1996)).
The public-rights doctrine derives from this
Court’s decision in National Licorice. That case
allowed a challenge by the National Labor Relations
Board to certain employment contracts under the
labor laws, and the company argued that the
employees were required parties without whom the
litigation could not proceed under Rule 19. 309 U.S.
at 351-56. The Court disagreed, ruling that the action
was “narrowly restricted to the protection and
enforcement of public rights,” such that “the absent
employees’ legal entitlements would not be destroyed

19
[in the litigation]” because the employees would
remain “free to assert such legal rights as they might
have acquired under their contracts.” Id. at 363-64,
366.
Applying this settled law to the facts of this case,
the Ninth Circuit found that the public-rights
doctrine was not applicable because this litigation
“threatens to destroy NTEC’s existing legal
entitlements.” App. 31a. Specifically, the court
concluded that if the ROD were vacated, the
approvals would be invalid “and NTEC would lose all
associated legal rights” to operate the Mine. Id.
Because NTEC could not engage in the mining
activities absent the federal approvals that
petitioners sought to vacate, the litigation threatened
private rights and the public-rights doctrine was
inapplicable. Thus, this case was unlike National
Licorice, because there the suit did not threaten to
destroy the absent employees’ rights under their
employment contracts. 309 U.S. at 366.
The Ninth Circuit also distinguished this case
from a prior Ninth Circuit precedent applying the
public rights exception to an environmental challenge
to federal mining approvals. App. 29a-31a (citing
Conner, 848 F.2d at 1442-45, 1460-61). In that case,
the court explained, mining “had apparently not even
been authorized or begun,” whereas here, the
approved mining and power generation activities
were “already taking place.” App. 31a. Thus the court
concluded, unlike in Conner, NTEC’s existing legal
entitlements were at stake in this litigation. Id.

20
B. The Ninth Circuit Properly Rejected
Petitioners’ Categorical Approach to
Rule 19
1. As explained above, the Ninth Circuit
straightforwardly applied Rule 19’s case-specific
joinder principles to the particular facts at issue.
Petitioners
challenge
that
decision
by
mischaracterizing its holding as a sweeping
prohibition on “challenging federal agency action that
benefits entities that cannot be made parties to [the
challenge].” Pet. 12. According to petitioners, “[i]t
will now be impossible in the Ninth Circuit to
challenge federal agencies’ compliance with laws like
NEPA and the ESA . . . when those actions affect
Indian lands or the financial interests of tribes more
generally.” Pet. 25.
That sky-is-falling assertion wildly overstates the
effect of the decision below. On the contrary, under
the Ninth Circuit’s longstanding case-specific
approach to Rule 19, environmental actions and
challenges to federal agency action are frequently
allowed to proceed, depending on the extent to which
they threaten to deprive absent parties (including
Indian tribes) of their existing legal rights. The
decision below does not change that.
In Alto, for example, the Ninth Circuit allowed
former tribal members’ APA challenge to the BIA’s
decision to disenroll them from the tribe to proceed—
even in the tribe’s absence—after concluding that the
BIA could adequately represent the tribe’s interest in
“limiting enrollment to qualified individuals.” 738
F.3d at 1128. Similarly, in Conner, the Ninth Circuit
allowed a challenge under NEPA and the ESA to the
issuance of certain oil and gas leases to proceed after

21
determining that the action “does not adjudicate or
‘prejudge’ the rights” of the absent lessees. 848 F.2d
at 1461 (citation omitted).
In this case, the Ninth Circuit distinguished Alto
and Conner on their facts—not based on any
categorical rule requiring dismissal of any challenge
to agency action benefitting absent parties.
It
explained that in Alto (unlike here) the BIA’s and the
tribe’s interest in defending the BIA’s enrollment
decision was identical, and that in Conner (again,
unlike here) the litigation did not threaten any
existing legal right created by the challenged leases.
App. 22a, 31a-32a. Far from creating a categorical
rule blocking any challenge to federal agency action
touching on tribal interests, the decision below
reaffirms the Ninth Circuit’s settled, fact-specific
approach to Rule 19.
2. In fact, it is petitioners—not NTEC or APS—
who have embraced a categorical approach to Rule 19
in this litigation. Although their petition does not say
so, below petitioners urged the Ninth Circuit to
embrace a new, bright-line rule that “tribal sovereign
immunity is not a sufficient basis for dismissing
public interest lawsuits against federal agencies for
violating NEPA and the ESA.” Pet’rs CA9 Br. 20.
And even now, petitioners would exempt all APA
litigation involving tribal interests from Rule 19’s
joinder requirements—either because the federal
government can always represent the interests at
stake, or because the public-rights doctrine always
applies. Pet. 29-31.
No court has ever articulated any version of these
categorical rules, and they are wrong as a matter of
text and precedent. Rule 19 turns on a case-specific
analysis of the facts at hand, calling for a “practical”

22
assessment of the absent party’s interests and the
application of “equity and good conscience” to
determine whether the action should nevertheless
proceed. Fed. R. Civ. P. 19(a)(1)(B)(i), (b). And courts,
including this Court, have recognized that the Rule 19
analysis “turn[s] upon factors that are case specific”
and is “based on equitable considerations.” Pimentel,
553 U.S. at 862-63; see also United States ex rel. Hall
v. Tribal Dev. Corp., 100 F.3d 476, 481 (7th Cir. 1996)
(noting that Rule 19 is “flexib[le]” and “mandates a
case-specific inquiry”).
Similarly, the public-rights doctrine has no
application where private rights are threatened.
Petitioners ignore the settled exception to the publicrights doctrine that “the litigation must not ‘destroy
the legal entitlements of the absent parties.’” Kescoli,
101 F.3d at 1311 (quoting Conner, 848 F.2d at 1459);
see also National Licorice, 309 U.S. at 366 (applying
the doctrine where “the [absent] third persons were
left free to assert such legal rights as they might have
acquired under their contracts”).
To justify their categorical approach, petitioners
point out that dismissing cases affecting Indian tribes
under Rule 19 will impede their ability to obtain
judicial review of federal agency action in this and
other cases. Pet. 25-28. But by definition, Rule 19
always requires the dismissal of suits that could
otherwise go forward. The policy embodied in Rule 19
is that—when its specifications are met—such suits
should be dismissed so as to avoid adjudicating a third
party’s legal rights in that party’s absence. The Court
should reject petitioners’ invitation to create a new,
categorical carve-out to Rule 19 that would single out
Indian tribes for inequitable treatment.

23
3. Petitioners also err in attacking the Ninth
Circuit’s application of Rule 19 to the facts of this
case. Most importantly, petitioners minimize (at 2931) the Nation’s interests at stake in this litigation.
NTEC’s purchase of the Navajo Mine represented a
major step forward in the Navajo Nation’s pursuit of
energy independence and economic development. For
the Nation, hundreds of jobs and tens of millions of
dollars in annual revenue are on the line if petitioners
succeed in overturning the approvals—not to mention
the hundreds of millions already invested in reliance
on those approvals. See supra at 4.
Petitioners are also wrong to say (at 16, 29) that
the government is capable of representing NTEC’s
interests. In theory, the Federal Defendants and
NTEC are aligned in opposing the substance of
petitioners’ challenge. But as the Ninth Circuit
found, the Federal Defendants’ ultimate interest
“must be in complying with environmental laws such
as NEPA and the ESA.” App. 21a. This interest is
fundamentally different from NTEC’s and the Navajo
Nation’s “sovereign interest in ensuring that the Mine
and Power Plant continue to operate and provide
profits to the Navajo Nation.” Id. The interests of the
Federal Respondents and NTEC could diverge with
respect to what the environmental laws require, as
well as to the proper remedy for any identified
violation.
Simply put, the Federal Respondents do not share
the Navajo Nation’s existential concern about the
outcome of this litigation. If the underlying approvals
are vacated, Federal Defendants will have to conduct
a new environmental review. By contrast, the Nation
will lose—perhaps forever—a critical source of
revenue and jobs for hundreds of tribal members.

24
Federal Defendants simply do not have the same
incentive to pursue every possible avenue to defend
the continued operation of Navajo Mine and the
Plant. Indeed, the United States filed an amicus brief
in the Ninth Circuit opposing dismissal on Rule 19
grounds. It is hard to imagine a clearer sign that the
government cannot be relied upon to defend the
Navajo Nation’s interests in this case.
Given NTEC’s unique sovereign interests at stake
in this case, the Ninth Circuit properly ordered
dismissal under Rule 19. That decision does not
warrant further review.
II. THERE IS NO CIRCUIT SPLIT
Petitioners assert that certiorari is necessary to
resolve a circuit split over Rule 19’s application to
challenges to federal agency action affecting Indian
tribes. They are mistaken: All circuits agree that
Rule 19’s factbound, case-specific analysis governs
the joinder analysis. None has adopted petitioners’
proposed rule that such challenges are categorically
exempt from Rule 19. Any difference in outcome
across the cases reflects differences in their respective
facts.
1. Petitioners assert (at 17-18) that the Ninth
Circuit’s ruling here conflicts with the Seventh
Circuit’s decision in Thomas v. United States, 189
F.3d 662 (7th Cir. 1999), cert. denied, 531 U.S. 811
(2000). There, the Seventh Circuit held that an
Indian tribe was not a necessary party to a legal
challenge to a federal agency’s administration of an
election to amend the tribe’s constitution. Id. at 667;
see 25 U.S.C. § 476(a)(2), (d) (1994).
Petitioners are mistaken: There is no conflict
between Thomas and the decision below. Like the

25
Ninth Circuit, the Seventh Circuit recognizes that
Rule 19 is “flexib[le]” and “mandates a case-specific
inquiry.” Hall, 100 F.3d at 481 (citing Makah, 910
F.2d at 558). And like the Ninth Circuit in this case,
the Seventh Circuit in Thomas looked to “the missing
party’s interest” and applied the fact-specific analysis
required by Rule 19. 189 F.3d at 667. The court held
that under federal law, “Secretarial elections, such as
the one at issue here, are federal—not tribal—
elections,”
emphasizing
that
Congress
had
“unmistakabl[y]” decided “to privilege federal control
over tribal interests in tribal constitutional elections.”
Id. at 667-68. The court thus concluded the tribe had
no substantial interest in the way the election had
been administered. Id. Unlike here, where NTEC
itself has the legal right to operate Navajo Mine based
on the challenged approvals, the tribe in Thomas had
no authority to reject the amendment even if it
concluded that the Secretary had conducted the
election improperly. See id. at 668. (“[T]he tribal
governing board has no legal authority to refuse to
implement amendments to the tribal constitution
that have been put to a vote and approved by the
Secretary.”). Thus, the challenge was merely “a
challenge to the way certain federal officials
administered an election for which they were both
substantively and procedurally responsible,” and it
did not directly implicate any of the tribe’s own rights.
Id. at 667. The tribe itself was therefore not a
necessary party. Id. at 667-68.
Thomas would have come out the same way had it
arisen in the Ninth Circuit. Indeed, the facts in
Thomas are similar to those in Alto, where the Ninth
Circuit held that a tribe was not a necessary party to
a challenge to a federal agency’s decision to disenroll

26
certain tribal members, in part because the tribe had
“delegated its authority over enrollment to the BIA,”
so vacatur of the disenrollment order “would not
undermine authority the Tribe would otherwise
exercise.” 738 F.3d at 1129. The key to both cases
was the fact of federal control over certain tribal
functions—an element not present here. Notably, the
Ninth Circuit here distinguished Alto on those very
grounds. App. 22a. The Ninth Circuit’s treatment of
Alto below refutes any assertion of a conflict with the
Seventh Circuit’s decision in Thomas.
2. Petitioners also assert that the Ninth Circuit’s
decision here conflicts with the Tenth Circuit’s
decisions in Kansas v. United States, 249 F.3d 1213
(10th Cir. 2001), Sac & Fox Nation v. Norton, 240 F.3d
1250 (10th Cir. 2001), cert. denied, 534 U.S. 1078
(2002), and Manygoats v. Kleppe, 558 F.2d 556 (10th
Cir. 1977). But in each of these cases, the Tenth
Circuit applied the same approach to Rule 19 that the
Ninth Circuit applied here: It carefully walked
through the Rule 19 analysis based on the particular
facts at issue.
To be sure, the Tenth Circuit declined to dismiss
those cases. But unlike here, none of them directly
challenged a tribe’s “existing legal entitlements.”
App. 31a (emphasis added). For example, Kansas and
Sac & Fox Nation both involved APA challenges to a
federal agency’s decision to designate certain
property as “Indian lands” under the Indian Gaming
Regulatory
Act,
25
U.S.C.
§ 2701-2721—a
determination that would have allowed an Indian
tribe to establish gaming facilities on the property.
Kansas, 249 F.3d 1225-27; Sac & Fox Nation, 240
F.3d at 1258-59. In both cases, the Tenth Circuit
articulated and applied the same fact-specific, Rule 19

27
test that the Ninth Circuit applied here—not any
categorical rule allowing APA cases to proceed
against the federal government simply because they
involve challenges to federal agency action.
Moreover, neither case involved the renewal of federal
authorization to operate existing casinos. Here, by
contrast, NTEC has an existing interest in Navajo
Mine, which has operated since the 1960s. SER58.
Similarly, in Manygoats, the Tenth Circuit applied
the standard Rule 19 analysis and refused to dismiss
a challenge to a federal agency’s NEPA approval of
mining activities on tribal land. 558 F.2d at 558-59.
Significantly, Manygoats first held that tribe was a
“required” party to the litigation under Rule 19(a),
since the federal government could not adequately
represent its interests. Id. at 558. Nevertheless, the
court ultimately concluded that the suit could proceed
without the tribe in “equity and good conscience”
under Federal Rule of Civil Procedure 19(b). But
again, Manygoats involved an approval to “explore
for, and mine, uranium,” 558 F.2d at 557, not a
renewal of an existing mining right (as in this case).
That factual distinction refutes any purported circuit
split.
Finally, petitioners cite footnoted dicta from
Southern Utah Wilderness Alliance v. Kempthorne,
525 F.3d 966 (10th Cir. 2008). In that case, the
district court found that BLM had violated NEPA in
issuing certain oil and gas leases. Id. at 967-68. Two
lessees filed a post-judgment motion to intervene as
of right under Federal Rule of Civil Procedure 24, and
then filed a notice of appeal before the district court
ruled on their motion. Id. at 968.
In rejecting the lessees’ appeal, the Tenth Circuit
first noted the “usual rule” that “only parties to a

28
lawsuit . . . may appeal an adverse judgment.” Id.
(citation omitted). It then explained that nonparty
appeals may be allowed where the nonparty has a
“unique interest in the outcome of the case,” but that
here, the lessees had no such interest. Id. The court
went on to “note” in a footnote that the lessees “were
not indispensable parties to the district court
proceedings because [the] action against BLM fell
within the ‘public rights exception’ to joinder rules.”
Id. at 969 n.2.
This statement was quintessential dicta. No party
had asked the court to address the issue, and the
court never suggested that it was relevant to its
resolution of the appeal. Far from breaking from the
Ninth Circuit, moreover, the Tenth Circuit’s footnote
expressly endorsed that court’s decision in Conner,
which similarly rejected lessees’ claims to be required
parties to an APA challenge to BLM’s issuance of oil
and gas leases. Id. (citing 848 F.2d at 1458–62). In
this case, the Ninth Circuit expressly distinguished
Conner—and, by extension, Southern Utah. App.
31a-32a. It did not create a circuit split.
In short, none of the Tenth Circuit cases
petitioners cite either rejects the legal standard
applied by the Ninth Circuit here or applies that
standard to reach a different conclusion based on the
same set of facts. On the contrary, at least one district
court in the Tenth Circuit has applied Rule 19 and
dismissed a virtually identical challenge by one of the
petitioners in this case to the continued operation of
Navajo Mine, based on essentially the same theory
adopted by the Ninth Circuit here. Ctr. for Biological
Diversity v. Pizarchik, 858 F. Supp. 2d 1221, 1224 (D.
Colo. 2012) (addressing approvals granted to Navajo
Mine in 2010). In doing so, the court explained that

29
“[t]he Nation has significant and important economic
interests in the uninterrupted continuation of the
Navajo Mine, which interests simply do not impel
OSM or the Department of the Interior.” Id. at 1227
& n.9 (distinguishing Manygoats).3 The alleged split
between the Ninth and Tenth Circuits is thus entirely
illusory.
3. Nor are petitioners right to assert a conflict
with the D.C. Circuit. Like the Seventh, Ninth, and
Tenth Circuits, the D.C. Circuit also recognizes that
Rule 19 “calls for a pragmatic decision based on
practical considerations in the context of particular
litigation.” Kickapoo Tribe of Indians of the Kickapoo
Reservation in Kansas v. Babbitt, 43 F.3d 1491, 1495
(D.C. Cir. 1995).
Ramah Navajo School Board, Inc. v. Babbitt, 87
F.3d 1338 (D.C. Cir. 1996), is not to the contrary.
There, the D.C. Circuit held that an absent tribe was
not an indispensable party to a challenge to the
federal government’s formula for allocating certain
funds to which Indian tribes were entitled by statute
to cover administrative costs associated with running
certain tribal programs. Id. at 1341. Like the Ninth
Circuit here, the D.C. Circuit applied the standard
Rule 19 analysis, focusing on “whether the nonparty
Tribes have a legally protected interest in the
enjoined CSF funds.” Id. at 1351.
3 The Tenth Circuit has also dismissed other challenges to
agency action for failure to join an affected Indian tribe. Citizen
Potawatomi Nation v. Norton, 248 F.3d 993, 995-96 (10th Cir.)
(dismissing one Indian tribe’s challenge the Department of the
Interior’s calculation of certain funds due to all federally
recognized tribe on grounds that Rule 19 required joinder of the
absent tribes), opinion modified on reh'g, 257 F.3d 1158 (10th
Cir. 2001).

30
Ramah is easily distinguished from this case
because there the absent tribes had no legally
protected interest in the funds—a prerequisite that
no party disputes NTEC has met here. Id. (holding
that funds would provide only “negligible” benefits to
absent tribes). And although the D.C. Circuit went on
to state that the federal government could adequately
represent the tribes’ legally protected interests even
if they did exist, that factbound conclusion rested on
its assessment that there was no conflict between the
government and tribes—or among the absent tribes
themselves—as to the allocation of those funds. In
reaching that conclusion, moreover, the D.C. Circuit
endorsed the Ninth Circuit’s decision in Makah,
which articulated the exact same Rule 19 framework
that the Ninth Circuit applied here. Ramah, 87 F.3d
at 1351 (citing 910 F.2d at 558). Indeed, the Ninth
Circuit’s decision in this case itself invoked Makah—
just as Ramah did. App. 16a. The D.C. Circuit’s
reliance on Makah shows that the alleged circuit split
does not exist.
4. Finally, petitioners point (at 23-25) to two
other circuit court decisions that they claim are in
“tension” with the decision below. Petitioners are
mistaken as to both.
In School District of Pontiac v. Secretary of the
United States Department of Education, a group of
school districts and education associations sued the
U.S. Department of Education to prevent it from
withholding federal funds on the basis of the schools’
failure to implement certain requirements of the No
Child Left Behind Act of 2001, which the schools
claimed they could not implement without additional
federal funding. 584 F.3d 253, 264-68 (6th Cir. 2009)
(en banc). Recognizing that “Rule 19 calls for a

31
pragmatic approach,” the Sixth Circuit held that the
states in which the school districts lay were not
required parties to the litigation, because they were
merely “intermediaries through which federal funds
flow to local schools” and so lacked a legally protected
interest in the outcome. Id. at 265-66. The court also
concluded—without further elaboration—that “the
States’ interests, if they have any, are adequately
represented by the existing parties.” Id. at 266-67.
There is no tension between Pontiac and the
decision below. Unlike the states in Pontiac, which
had no cognizable stake in the outcome of the
litigation, here, the stakes for NTEC and the Navajo
Nation are high, and include the Nation’s long-term
financial health and ability to provide public services
to its members. And the primary conclusion for which
petitioners cite Pontiac—its alternative holding that
whatever interests the states may have are
adequately represented by the “existing parties”—
consists of a single sentence in the opinion followed by
a string citation. Pontiac did not involve review of
agency action; it did not rely on the public rights
exception; and it did not recognize any absent party’s
interest in the litigation. It does not establish a
circuit split warranting this Court’s review.
Petitioners also point (at 24-25) to Jeffries v.
Georgia Residential Finance Authority, a challenge
brought by a group of tenants to a regulation that
allowed leases for federal public housing to provide for
unilateral termination by the private landlord with 30
days’ notice. 678 F.2d 919, 929 (11th Cir.), cert.
denied, 459 U.S. 971 (1982). Recognizing that “[t]he
court’s decision on joinder is guided by pragmatic
concerns,” the court allowed the challenge to proceed
without the landlords, since the ultimate decision

32
whether to evict a tenant in public housing lies “solely
within the discretion and responsibility of [the
relevant state housing authority],” which must assess
whether there is good cause for the eviction. Id. at
928-29. Alternatively, the court relied on the publicrights doctrine, explaining that “when litigation seeks
vindication of a public right, third persons who could
be adversely affected by a decision favorable to the
plaintiff do not thereby become indispensable
parties.” Id. at 929.
Again, this case is different. At stake in Jeffries
was the owners’ right to unilaterally terminate public
housing leases without good cause. Id. at 922. Here,
by contrast, petitioners’ suit threatens the long-term
financial stability of the Navajo Nation. Moreover,
the suit in Jeffries did not threaten to destroy the
landlords’ underlying right to lease their apartments,
whereas here, NTEC’s ability to continue mining on
Navajo lands is very much in jeopardy. In this case,
then—unlike in Jeffries—the government defendants
cannot adequately represent NTEC’s interests, and
the public-rights doctrine does not apply.
III. THIS CASE IS A POOR VEHICLE FOR
REVIEW
For the reasons noted above, this case does not
implicate the Court’s traditional criteria for
certiorari. The Ninth Circuit’s fact-specific approach
is clearly correct, and there is no circuit split. But
even if the Court were inclined to address the
application of Rule 19 to APA cases more generally,
this would be an especially poor vehicle in which to
consider that issue.
Navajo Mine and the Plant are the economic
lifeblood of the Navajo Nation and the centerpiece of

33
its tribal energy policy, and it would be especially
unfair to adjudicate their future in the Nation’s
absence. Navajo Mine and the Plant are essential to
the economic well-being of the Nation and its 320,000
members. Navajo Mine and the Plant generate tens
of millions of dollars in revenue for the Nation each
year—over a third of the Nation’s general fund—and
those revenues fund the Nation’s schools and police,
fire, and emergency medical services. See supra at 4.
Navajo Mine and the Plant also provide jobs for
hundreds of Navajo Nation members. See id.
Given all this, there is no good reason to reopen
litigation that threatens severe harm to the Navajo
Nation. Although the environmental approvals here
were entirely sound, see supra at 4-6, this Court
should not subject the Nation to the uncertainty—not
to mention sovereign indignity—of having other
parties litigate the tribe’s legal rights and fiscal wellbeing in its absence.

34
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
ROMAN MARTINEZ
Counsel of Record
STACEY L. VANBELLEGHEM
CLAUDIA M. O’BRIEN
RILEY T. KEENAN
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com
Counsel for Respondent
Arizona Public Service
Company
June 4, 2020

